Lee Charles Bradford # 325479
Alger Correctional Facility
N6141 Industrial Park Dr.
Munising Mich. 49862
RE:

Sixth Circuit Court No. 19-2099
US Dist. Court No. 2:-CV-72889
Original Habeas Petition

Proof of Service
day of December 2020, I
I Lee Bradford, solemnly affirm on this date
mailed corrections of my Petition for Writ of Habeas Corpus to:
Michigan
Attorney
P.0. Box
Lansing,

Attorney General
for Respondent
30758
MI 48909

By placing the same in a properly address envelope with postage fully prepaid and
depositing the same in the hands of the prisoner Counselor for delivery via
U.S. Mail.

^ Lee Bradford # 32^479

